                                  CLOSEOUT of M99030012

    An OIG review of the accuracy of publication claims in the final project reports of
    randomly selected NSF awards was unable to verify a publication claimed by the subject1
    in the final project report for an NSF award2and we opened a case on March 25, 1999.
    This final project report also included three publication claims in which the year of
    publication was incorrectly reported. Review of the final project reports and CVs
    included in other awards to the subject identified an additional publication claim that we
    could not ~ e r i f y . ~

    Upon our request, the subject provided us with copies of the publications that we had
    been unable to verify. The subject also explained that the discrepancy in the publication
,   dates was due to the inclusion of publications on his CV at the time he received proofs. If
    the subject received proofs at the end of a year but the           was not released until
    the beginning of the subsequent year, this sometimes resulted in reporting the incorrect
    year on his CV. The subject stated that he would update his CV more frequently in the
    future to avoid such errors.

    We determined that the subject did not make any false publications claims and accepted
    his explanation for the discrepancy in publication dates for some publications. Therefore,
    this inquiry is closed.
                                          .   .
    Cc: Integrity, IG




                                         [Footnotes redacted.]




                                              Page 1 of 1
